NATIONAL RAILROAD PASSENGER CORPORATION
                        Office of the Inspector General




                                               APRIL 1, 2006 – SEPTEMBER 30, 2006


                                   Semiannual Report
                                         to Congress
Cover Photo: Amtrak Empire Builder
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                    Semiannual Report
                                                          to Congress




                                                                                 REPORT NO. 34
                                                            APRIL 1, 2006 – SEPTEMBER 30, 2006
                                            NATIONAL RAILROAD PASSENGER CORPORATION
                                                 Office of the Inspector General, 10 G Street, NE, 3W-300, Washington, DC 20002-4285




October 31, 2006

Honorable David Laney
Chairman
Amtrak Board of Directors

Dear Mr. Chairman:

This report, submitted pursuant to the Inspector General Act, summarizes the more significant
audits, evaluations, and investigations for the six-month period ending September 30, 2006.

The OIG issued 17 audit reports in the last two quarters, including performing oversight
work for the company’s audited financial statements, evaluating Amtrak’s procurement card
implementation, performing federal grant compliance reviews for the New York Fire and
Life Safety project, and conducting several other procurement reviews.

Our investigators and special agents opened 79 new cases in the past six months and closed
81 cases; 317 investigations remain active as of September 30. We made 13 criminal refer-
rals to the Attorney General, obtaining one indictment, four declinations, three case
resolutions, and five pending prosecutorial review. We continue to investigate several cases
of employee-related fraud and embezzlement, with a number of employee administrative
dismissals and subsequent successful prosecutions.

The OIG Inspections and Evaluations team issued a report on Amtrak’s train fleet manage-
ment processes, making a number of recommendations to improve asset management of
rolling stock. We also issued a report regarding the potential financial impact of poor on-
time performance affecting Amtrak’s long-distance routes, drawing attention to the
difficulty Amtrak has had in managing this important aspect of passenger service.

We have been increasing our outreach and coordination efforts with Amtrak’s security part-
ners. Working with the New York Police Department, we have assisted in promoting the
Northeast Rail Coalition, a group founded by NYPD and Amtrak to increase state and local
law enforcement support of Amtrak’s security needs. We have also conducted further secu-
Honorable David Laney
October 31, 2006
Page 2




rity reviews of several major urban stations, and we are making specific recommendations to
management with regard to needed infrastructure counter-measures.

I appreciate your and the Board’s continued support of the OIG’s oversight efforts. We look forward
to working with you in the coming new fiscal year.

Respectfully,




Fred E. Weiderhold, Jr.
Inspector General
                                                                                                   Table of Contents
Inspector General Viewpoint                                                                   Inspections and Evaluations
FY2006 Year End Financial Results . . . . . . . . . . . . . . . . . . . 1                     Significant Inspections and Evaluations . . . . . . . . . . . . . . . . 14
Amtrak Strategic Reform Initiatives Update . . . . . . . . . . . . . 1
Safety and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                                                                                              Counter Terrorism and Intelligence
                                                                                              Significant Counter Terrorism and Intelligence Efforts . . . . 17

Amtrak Profile
Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                                                                                              Other OIG Activities
OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4   Coordination with Independent Public Accountants . . . . . . 18
                                                                                              Lease Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                                                                                              Workpaper Automation . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Office of Audits
Significant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Unresolved Audit Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                                                                                              Appendices
Management Responses Over Six Months Old for                                                  1. Audit Reports Issued with Questioned Costs . . . . . . . . . 20
Which Corrective Action Has Not Been Completed . . . . . . . 8                                2. Audit Reports Issued with Funds
Audit Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9       to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                                                                                              3. Detailed Listing of All Issued Audit Reports . . . . . . . . . 22
                                                                                              4. Summary of Reports to President of Amtrak
Office of Investigations                                                                         Concerning Information or Assistance
                                                                                                 Unreasonably Refused or Not Provided . . . . . . . . . . . . . 23
Case Status of Investigations . . . . . . . . . . . . . . . . . . . . . . . . .10
                                                                                              5. Review of Legislation and Regulations . . . . . . . . . . . . . 24
Case Handling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                                                                                              6. Glossary of Audit Terms and Abbreviations . . . . . . . . . 25
Sources of Allegations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Hotline Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Significant Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . 10           Reporting Requirements Index
Efficiency and Effectiveness . . . . . . . . . . . . . . . . . . . . . . . . 11
                                                                                              Reporting Requirements Index . . . . . . . . . . . . . . . . . . . . . . . 26
Classification of Cases Opened During this Period . . . . . . . 12
Prosecutive Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Revenue Protection Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                                       Inspector General Viewpoint
FY 2006 YEAR-END FINANCIAL
RESULTS
Amtrak completed the fiscal year with $2.017 billion in total
revenue ($1.565 billion in passenger related revenues), and total
expenses were $2.940 billion. Amtrak’s adjusted losses, before
depreciation, were $1.127 billion, $101.8 million better than
budget, and $65.5 million better than last fiscal year.
Stronger than expected passenger revenues helped drive
improved revenue performance, with notable performance
improvements from corridor services, including Amtrak’s
Northeast Corridor Regional trains, California’s Pacific
Surfliners and San Joaquins, and the Carolinian. All long
distance trains also showed revenue growth. Total operating             Pacific Surfliner | San Diego, CA
expenses were unfavorable to budget and to last year, with favor-
able results from salaries and wages offset by increased expenses
in fuel and material expenses.                                          in particular, expanded passenger rail service, investing heavily in
                                                                        stations, equipment acquisition, and operations.
Capital investments were $117.1 million, 16 percent less than
budget. The available operating cash budget at year-end was             Shorter distance rail passenger services represent real growth
$215.1 million, with cash balances being higher predominantly           opportunities for Amtrak, as an operator, maintainer, and
due to lower than expected capital spending.                            supplier of various passenger rail services. The Strategic
                                                                        Reform Initiative calls for new legislation whereby states can
                                                                        apply for matching federal funds (programs similar to high-
AMTRAK’S STRATEGIC REFORM                                               ways/transit) to grow passenger rail in their state.

INITIATIVES UPDATE                                                      The challenge for Amtrak is to continue to offer services that
In previous Semiannual Reports, I commented on the company’s            current, and prospective, state partners perceive as ‘value added’
efforts to act on several major strategic initiatives, which were       and worthwhile. Most states are willing to pay more for Amtrak
embodied in the Strategic Reform Initiatives (SRIs) provided to         in their state, but as their payments increase, they will want to
Congress (April 2005). I have included some prior comments              see higher quality, more reliable service. Additionally, the
with this report. The full text of the plan is at www.amtrak.com        participating states do not necessarily perceive a ‘level playing
located at “Inside Amtrak” and other related reports are found at       field’ in that some state corridor services evolved as part of
the Amtrak Web site.                                                    Amtrak’s base system. These corridor services were not covered
                                                                        by the former 403(b) program, or by any other state-supported
Since my last report, some SRI projects have advanced, but other        contract, but rather the services were holdovers from the former
initiatives remain in the planning stages. The OIG agrees with          designated national system prescribed by Congress.
management that the company must undertake a different approach
to managing the company in order to reduce reliance on federal          Included in the “Lott-Lautenberg” draft bill (S. 1516) are provi-
operating subsidy, and we are encouraged by the SRI efforts to          sions that over time will grant states greater access to federal
date. From my perspective, here are some of the challenges.             matching monies for passenger rail expansion. Section 302 of the
                                                                        draft bill allows that each state prepare and maintain a state rail
State Rail Corridors – Amtrak has had considerable success in           plan that will establish the authority and criteria for submitting
the past in working with its state rail partners. These successes       eligible plans to the Secretary of Transportation for consideration
arose from a legislated program (403(b) of the rail Passenger           for a long range rail investment. The OIG believes that these state
Service Act, since superseded) whereby the participating state          rail authorities, and subsequent plans, will be critical to the success
agreed to fund various levels of avoidable operating losses of the      of both intra-state, as well as interstate, rail passenger service
contracted service. Over time, depending upon the willingness of        growth, and we encourage Amtrak management to position itself
the state to accept passenger rail service as a needed transportation   to take full advantage of this legislative opportunity.
mode, various states contributed both to the operating and capital
needs for corridor development. California and Washington State,

                                                                                                            Inspector General Viewpoint      1
                                                                     Within S. 1516, Congress also is calling for changes with respect to
                                                                     how Amtrak plans for achieving a ‘state of good repair’ by FY
                                                                     2011. Congress will require that a capital spending plan be
                                                                     submitted to the Secretary of Transportation for review and
                                                                     approval.
                                                                     National Long Distance Operations – One of the more contested
                                                                     area of Amtrak’s operations is the operation of its long distance
                                                                     train services. There have been many studies conducted since
                                                                     Amtrak’s inception that attempt to describe, rank order, and
                                                                     make recommendations to restructure the national route struc-
                                                                     ture. Until 1997, Congress had mandated specific performance
                                                                     guidelines that attempted to set a ‘threshold’ by which determi-
                                                                     nations could be made to continue, or discontinue, any given
                                                                     route. Today, Amtrak has the ability to re-structure its national
Regional | Schuykill River Bridge, Philadelphia, PA
                                                                     route system, but there is no consensus among Amtrak’s various
                                                                     stakeholders as to how this may be accomplished.
Northeast Corridor: State of Good Repair – Much of
Amtrak’s capital budget in recent years has been invested in         The challenge for the Board, and Amtrak management, is to
restoring the ‘state of good repair’ to the Northeast Corridor.      build the necessary consensus for examination of the route struc-
                                                                     ture, select the appropriate performance criteria (financial/
The OIG is in strong support of this initiative, but we believe      ridership), and then to establish a timetable by which routes
more work is required to bound the effort and lay out a more         would achieve those criteria, or be subject to elimination. S.
rigorous analysis of return on capital invested. Amtrak needs to     1516, Section 210, calls for a re-appraisal of all long-distance
delineate specifically the results of these programs. For example,   routes, with required remediation, and possible restructuring,
Amtrak can prescribe a level of utility (class of track to permit    over time.
high-speed operations) for all sections of the Northeast Corridor
track infrastructure. Amtrak can categorize the incremental costs    Ancillary Businesses – The Board has directed that manage-
for maintaining track at Class 7 (MPH) or Class 8 (MPH), and         ment closely examine its ‘non-core’ businesses, that is, its
can tie revenue projections to scheduled performance. Other          operation of commuter services, real estate, commercial activi-
efforts can be oriented to major bridge and tunnel work, e.g. - to   ties, and reimbursable work. These businesses provide a net
keep the useful life of an asset within 90 percent of its expected   profit to Amtrak, and the Board desires that Amtrak manage
useful life before replacement). Additionally, a more complete       these business lines more closely to ensure these activities
inventory of major programs and projects, by asset type, should      complement, rather than detract, from core activities.
be maintained and shared with Congress and rail partners.            The OIG agrees with the general directive of the Board, but the
The Board also expects that the actual costs for maintaining the     OIG also believes there is more opportunity for Amtrak to
Northeast Corridor infrastructure should be re-examined, and, as     leverage its assets, both physical and human capital assets.
necessary, be re-apportioned among the Corridor users. While         Amtrak has made several decisions in recent years to remove
there are a number of joint benefit funding agreements in place      itself from some business lines, including some commuter oper-
with the major users of the Corridor, not all users participate in   ations and the mail and express business. We agree with some of
these agreements, and there are disagreements as to what capital     those decisions, but we also believe there has not been sufficient
and operating expenses are incremental and should be shared.         analysis to remove Amtrak from all parts of such businesses.
The existing agreements must be honored through their contract       For example, prior to Amtrak’s foray into the express business,
terms, and more studies around cost sharing must be conducted.       Amtrak’s handling of U. S. mail was a profitable business line.
Additionally, new contractual arrangements will have to be
negotiated with those states and regional authorities as directed
by the Board.




2     Inspector General Viewpoint
SAFETY & SECURITY                                                       CONCLUSIONS
                                                                        The OIG supports the passage of S. 1516, and we believe many
SAFETY                                                                  of the bill’s provisions may result in positive changes for Amtrak
Amtrak has reinstated its System Safety program, but the program        and our nation’s passenger rail services.
is not as fully integrated and as visible as we believe it should be.
                                                                        Amtrak needs to find its place as part of a more integrated and
We repeat our recommendation now to the company that more
                                                                        rationalized national transportation plan.
effort and attention must be paid to this vital performance area.

SECURITY
In September 2006, the OIG sponsored the Washington meeting
for the regional Anti-Terrorism Advisory Council (ATAC).
ATAC is an FBI-sponsored group that involves local and
regional law enforcement in an information-sharing forum, and
Amtrak OIG agents participate in several ATAC meetings across
the country.
The OIG reiterates its concern that more federal funds should be
available for passenger rail security counter-measures. While
Amtrak finally became eligible to receive a portion of new secu-
rity-related appropriations for rail and transit operations,
Congress must do more to address the shortfall, particularly in
the area of adding canine units, improving retention of Amtrak
Police, and acting on recommendations included in Amtrak’s
security funding plans.
                                                                        Sunset Limited | Louisiana




                                                                                                         Inspector General Viewpoint    3
Amtrak Profile
BACKGROUND                                                              The Office of Audits is responsible for conducting independent
                                                                        reviews of Amtrak’s internal controls; overseeing and assisting
Amtrak is incorporated under the District of Columbia Business          audits of Amtrak’s financial statements; reviewing information
Corporation Act in accordance with the provisions of the Rail           technology programs and information security; providing
Passenger Service Act of 1970 (Public Law 91-518). Amtrak is            accounting counsel to, and oversight of, Finance Department
governed by a seven-member Board of Directors appointed under           operations; reviewing certain procurements and material acquisi-
the Amtrak Reform and Accountability Act (December 2, 1997).            tions for appropriateness of cost and pricing and compliance
The company operates as a for-profit corporation providing inter-       with applicable grant and/or contract terms and conditions; and,
city rail passenger service as its principal business.                  monitoring compliance with laws and regulations.
Amtrak operates more than 260 daily inter-city trains over 23,000       The Office of Investigations is responsible for investigating
route miles serving over 500 communities in every state but two         various types of fraud and abuse particularly allegations of financial
in the contiguous United States. Of this route system, Amtrak           wrongdoings, kickbacks, construction irregularities, bribery, and
owns the right-of-way of more than 2,600 track miles in the             false claims; performing reviews of Amtrak’s safety and security
Northeast Corridor. This includes Washington, DC-New York               programs; recommending to the company better internal controls to
City-Boston, Philadelphia-Harrisburg, New Haven-Springfield,            prevent fraud and abuse; and, reporting violations of law to the
CT and short segments in Michigan and New York. Amtrak also             Attorney General and prosecutors. It is also charged with reviewing
operates rail services in several areas around the country under        and safeguarding Amtrak’s cash and credit card purchases for trans-
contract with state and regional commuter authorities.                  portation and food services on board Amtrak trains.
Amtrak owns many of its passenger stations and also leases other        The Office of Inspections and Evaluations is a hybrid unit
stations from the freight railroads. It owns most of the mainte-        within the OIG whose staff have specialized skills in engi-
nance and repair facilities for its fleet of about 2,000 cars and       neering, safety, labor/employee relations, mechanical
locomotives. Amtrak employs 20,000 persons, of which about              maintenance operations, strategic planning, and finance. This
18,000 are agreement-covered employees. These employees                 group conducts targeted inspections of Amtrak programs,
work in on-board services, maintenance of way, station and              providing assistance to managers in their efforts to determine the
reservations services, and other support areas. Outside the             feasibility of new initiatives and the effectiveness of existing
Northeast Corridor (NEC), Amtrak contracts with freight rail-           operating methodologies. The evaluative process they utilize,
roads for the right to operate over their tracks. On their property,    whether requested or mandated, consists of independent studies
the host freight railroads are responsible for the condition of their   and analytical reviews that often serve as the cornerstone for
tracks and for the coordination of all railroad traffic.                strategies to improve program cost efficiency and effectiveness,
                                                                        management, and the overall quality of service delivery
                                                                        throughout Amtrak.
OIG PROFILE
Amtrak’s Office of Inspector General (OIG) was formed                   The Office of Counter Terrorism and Intelligence (CT&I) is
under the provisions of the Inspector General Act Amendment of          responsible for facilitating, and overseeing projects and tasks
1988. The OIG is an independent entity within Amtrak whose              pertaining to rail security, counter-terrorism and intelligence
mission is to detect fraud, waste, and misconduct involving             related to the country’s war on terrorism. CT&I also works with
Amtrak’s programs and personnel and to promote economy and              external agencies to provide focus on the importance of rail secu-
efficiency in Amtrak operations. The OIG investigates allega-           rity and the need for integrated approaches for addressing the many
tions of violations of criminal and civil law, regulations, and         challenges in securing an open-architecture rail passenger system.
ethical standards arising from the conduct of Amtrak employees          OIG personnel are located in eight offices in Washington, DC
in performing their work. The OIG also audits and evaluates             (Headquarters), Baltimore, Wilmington, Philadelphia, New
Amtrak operations and assists management in promoting                   York, Boston, Chicago, and Los Angeles.
integrity, economy, efficiency, and effectiveness. The OIG
consists of the following offices with specific responsibilities:




4    Amtrak Profile
                                                                                 Office of Audits
SIGNIFICANT AUDIT ACTIVITIES
INTERNAL OPERATIONS REVIEWS
Control Deficiencies were noted in record-keeping, follow-
up, and segregation of duties.
Report #108-2005 – Issued 07/27/2006
The Amtrak Police Department (APD) participates in a federal
asset-sharing program known as the Federal Equitable Sharing
Program. This program is authorized under the Comprehensive
Crime Control Act of 1984 (Act). The Act authorizes the
Attorney General to share proceeds from seized assets with
participating state and local law enforcement agencies. The
objective of this audit was to determine if APD was complying
with the procedures outlined in the guide published by the
Department of Justice (DOJ) in March 1994 and a subsequent
addendum in March 1998.
The audit identified that there are inadequate record keeping and
                                                                    Adirondack | Plattsburgh, NY
follow-up processes in place to ensure that all funds due Amtrak
are claimed and received in a timely manner. Thirteen percent of
                                                                    The objective of this assignment was to review the internal
the claims in the audit sample were not filed within the 60 day
                                                                    control processes established by Amtrak’s Finance Department
deadline required under the Department of Justice Guide. In
                                                                    and determine if the balance sheet accounts were reconciled in a
addition, Amtrak police department had not implemented
                                                                    timely manner, adequate supporting documentation was main-
internal control procedures with respect to segregation of duties
                                                                    tained to support the general ledger account balances, and any
over the processes for cash receipts and disbursements, banking
                                                                    reconciling differences were properly analyzed and resolved.
relations, and procurement; and cash and other assets obtained
through the sharing funds are not recorded on Amtrak’s books.       Overall, compliance was satisfactory except for the following:
                                                                    Audit identified that there are inadequate written procedures for
APD agreed with the OIG recommendations and is taking steps
                                                                    performing many balance sheet account reconciliations,
to implement corrective actions.
                                                                    accounts reconciled by Corporate Accounting and Chicago
Financial Statement Preparation – The Balance Sheet                 Union Station Corporation (CUSCO) were not subject to an
Account Reconciliation area lacks a comprehensive proce-            oversight review, and account reconciliations for the Employee
dures manual, and some strengthened process controls.               Overpayments account lacked adequate documentation to
Report #111-2005 – Issued 09/08/2006                                substantiate the amount owed to Amtrak; and the reconciliations
                                                                    for the Lead Service Attendant Suspense account were not prop-
Amtrak management has been implementing corrective actions          erly analyzed or supported by adequate documentation.
to remedy the internal control weaknesses arising from a mate-
rial weakness finding with Amtrak’s FY 2001 financial               The OIG recommended that Finance implement relevant process
statements. Since then, as part of their annual audits, Amtrak’s    controls, and dedicate sufficient resources to prepare a compre-
external auditor, KPMG, made a number of follow-up assess-          hensive procedures manual for performing balance sheet account
ments of Amtrak’s internal controls and indicated that              reconciliations. The Controller agreed with our recommenda-
management had addressed many of the deficiencies earlier           tions and provided an action plan to implement corrective actions.
identified. These control issues were addressed in subsequent
                                                                    Emergency Exchange Voucher Review – The process does
Management Letters issued by KPMG. This audit was a contin-
                                                                    not adequately document station management’s review of
uation of the OIG oversight over Amtrak’s progress in
                                                                    transactions
implementing the corrective action plan and specifically
                                                                    Report #207-2006 – Issued 4/17/2006
addressed the Balance Sheet Account Reconciliations.
                                                                    The OIG performed a review of Emergency Exchange Vouchers
                                                                    (EEV) transactions that were reported by Washington Union

                                                                                                                  Office of Audits   5
Station (WUS) between October through December 2005 to                (Report #107-2005) disclosed various miscodes of project costs,
determine if EEVs were processed in accordance with estab-            certain project costs were not included in billings to Long Island
lished company procedures. EEVs are used locally to assist            Railroad and adequate contractor records were not maintained.
passengers who are seriously inconvenienced due to service            The audit for the liquidation of the Working Capital Advance
disruptions. We determined that the station’s EEV process does        fund (Report #213-2006) was found to be in compliance with
not adequately document station management’s review of EEV            Amendment No. 1 of the Agreement (DTFRDV-02-G-60034).
transactions and that the documentation supporting these trans-
actions does not consistently comply with procedures. In              Attleboro Agreement - Amtrak proceeded with capital
addition, management could not determine whether tickets were         improvements without formally requesting funding from
collected in cases where alternate transportation was provided as     the MBTA as required by the Attleboro Agreement.
the collected tickets were not attached to the EEV. Management        Report #217-2005 – Issued 9/29/2006
agreed with our findings and recommendations and will take            The OIG reviewed the contract administration and management
appropriate corrective actions.                                       of the Attleboro Agreement in which Amtrak provides mainte-
                                                                      nance of way and dispatching services on the MBTA portion the
Etrax Procurement P-Card System – Internal Control
                                                                      Northeast Corridor. The Agreement requires that Amtrak shall
Weaknesses Noted
                                                                      submit an annual report to the MBTA listing the capital improve-
Report #202-2005 – Issued 6/19/2006
                                                                      ment projects that Amtrak recommends the MBTA to fund and
We completed a review of Procurement Card (Pcard) charges             undertake in each of the five years following the date of the
processed through the Electronic Transaction Express (eTrax)          report. In accordance with the Agreement, the MBTA is respon-
Software System to determine the level of compliance with             sible for securing funding for the projects. Amtrak has been
Amtrak’s policies and procedures related to Pcard transactions.       inconsistent in submitting the required information and in
We found varying degrees of non-compliance with the Pcard             obtaining response from the MBTA. Amtrak requested a “2004
reconciliation and approval process and recommended improve-          Capital Requirements for the Attleboro Line” outlining the
ments and discussed revising and updating manuals and                 proposed capital projects to be completed over the next year.
instructions and the need to determine corrective action or           Amtrak also submitted a more formal Recommendation for
revised training requirements. Management has already initiated       Recapitalization Report that covers FY 2006 through FY 2010
certain corrective actions. Amtrak’s Accounts Payable                 proposed capital projects. A request for FY 2005 capital
Department has also agreed to perform monthly audits. In addi-        improvements was not submitted. In addition, Amtrak has not
tion, a new eTrax report will be created that identifies all Pcard    received a response from MBTA to either request for capital
reconciliation transactions that are in violation of the policy for   improvements. As a result, Amtrak continues to incur all the
follow-up by Accounts Payable. Other corrective actions               capitalization costs for the Attleboro Line.
involving Pcard applications, Pcard limits and other issues have
                                                                      We estimated that during a two-year period (FY 2004 and FY
also been taken.
                                                                      2005), it cost Amtrak approximately $22.7 million to operate and
                                                                      maintain (including capital improvements) the Attleboro Line.
CONTRACTS/GRANTS                                                      Approximately $13.9 million of the costs consisted of capital
Grant Agreement for New York Tunnels Fire and Life                    improvements. Amtrak proceeded with capital improvements
Safety Improvements – Fire Suppression System                         without formally requesting funding from the MBTA as required
Installation Project-Non-compliance with the Grant                    by the Attleboro Agreement.
Agreement, accounting errors and internal control
                                                                      Management agreed with our recommendation that a five-year
weaknesses noted.
                                                                      recapitalization report must be submitted annually to the MBTA
Report #107-2005 – Issued 8/1/2006
                                                                      and that a response be sought from the MBTA with respect to
Fire and Life Safety – Working Capital Advance – Amtrak               that report. Additionally, management recommends a review be
complied with the conditions of the Grant Agreement                   made to identify items of specific benefit to the MBTA before
when the fund was liquidated                                          the request is made. We will continue to monitor the administra-
Report #213-2006 – Issued 05/22/2006                                  tion of this important contract.
During this reporting period, the OIG performed two Grant
Agreement compliance audits and issued two separate reports.
The review of the Fire Suppression System Installation Project

6   Office of Audits
                                                                      Bombardier First Class Car Repairs – Costs Were
                                                                      Overstated
                                                                      Report #202-2006 – Issued 9/25/2006
                                                                      The purpose of our review was to verify the accuracy and accept-
                                                                      ability of the cost and pricing data shown on Bombardier’s final
                                                                      invoice of $882,294 for the wreck repair of an Acela First Class
                                                                      Car. We determined that the audited costs were $845,652.
                                                                      Additionally, we found that Amtrak management negotiated and
                                                                      signed a final contract agreement which included modifications
                                                                      to the audit and inspection of records clause without consulting
                                                                      our office.

                                                                      LEASE AUDITS
Pennsylvanian | Amish Farmland, PA                                    KWO Associates Lease Audit – The tenant’s hours of
                                                                      operation differed from those listed in the Lease
PROCUREMENT CONTRACTS                                                 Agreement and Gross Sales were under reported for
                                                                      calendar year 2004
Kiewit Construction Company                                           Report #214-2006 – Issued 09/08/2006
Audit Identified $244,947 in Questioned Costs
Report Number: 503-2005 – Issued 07/11/2006                           Our review of the tenant’s reported Gross Sales to Amtrak for
                                                                      calendar year 2004 disclosed that sales were under reported,
Amtrak’s Procurement Department requested an audit of the             which resulted in an additional minor payment to Amtrak. Also
base contract and a contract modification awarded to Kiewit           the utility fee was increased by 30% to compensate Amtrak for
Construction Company for Phase 1 work related to Amtrak’s             an increase in the tenant’s hours of operation, which were above
Holgate Street Improvement Project, and Phase II work south of        the hours listed in the Lease Agreement.
Holgate in Seattle, Washington. Of the net proposed total of $4.1
million, our audit identified $244,947 in questioned costs related
to overstated or overestimated proposed costs for subcontractor       RAILROAD AUDITS
work, jobsite overhead, allowances, insurance and bonds, and          CPR/SOO – On-Time Performance Incentives Audit
associated overhead and profit additives. Additionally, we identi-    $33,056 Excess Billings Identified
fied a minor questioned cost of $9,313 related to items outside the   Report #405-2005 – Issued 5/16/2006
initial audit scope. The OIG recommended that the questioned
                                                                      Under the April 16, 1971 Agreement provisions, the Canadian
costs be recovered in accordance with the contract terms.
                                                                      Pacific Railroad (CPR) bills Amtrak each month for specific
In its July 2006 response, management agreed to use the audit         services and facilities for intercity rail passenger operations.
findings to reach a negotiated settlement with the Contractor. By     During this reporting period the OIG continued its efforts in
September 2006, a settlement amount had tentatively been              reviewing the on-time performance incentives and identified an
agreed to with Kiewit representatives. However, Kiewit’s senior       additional $33,056 in excess and unsupported billings for the
management’s approval had yet to be obtained. A closing settle-       period January 2002 through May 2004. CPR representatives
ment is anticipated in the next reporting period.                     and Amtrak management agreed with the finding. Amtrak
                                                                      agreed to initiate a final settlement letter and has collected
Cleveland Track Material, Inc.                                        monies due Amtrak.
Report #201-2006 – Issued 8/15/2006
                                                                      CPR/SOO – Non-On-Time Performance Items Audit
We reviewed the contractor’s proposed costs for modifications         Basis for Contract Provisions were Misleading
to slip switches at Penn Station, New York. We determined that        Report #407-2005 – Issued 6/2/2006
the contractor had erroneously included interest expense, enter-
tainment meals and contributions in its general and                   The OIG performed a compliance audit on the April 16, 1971
administrative overhead pool. We recommended to manage-               Agreement between The National Railroad Passenger Corporation
ment that these erroneous expenses be disallowed.                     (Amtrak) and the Canadian Pacific Railway (CPR), successor of
                                                                      the SOO Line Railroad and the Chicago, Milwaukee, St. Paul, and

                                                                                                                  Office of Audits   7
Pacific Railroad Companies, for intercity rail passenger operations
on tracks and properties owned by CPR. Under the agreement
                                                                      MANAGEMENT RESPONSES OVER
provisions, the CPR bills Amtrak each month for specific services     180 DAYS OLD FOR WHICH
and facilities for intercity rail passenger operations. The period
reviewed - January 1, 2000 through May 31, 2004 - included all
                                                                      CORRECTIVE ACTION HAS NOT
non-on-time performance billable accounts. The audit sample           BEEN COMPLETED
represented $5,300,793 or 95 percent of the total amount billed for   The following items were reported in previous semiannual
these items. We found that the services or activities for which       reports. As of this reporting period, there are no significant
payment was made did not clearly relate to the agreement and          developments to report.
recommended that management collect $1,910,812 for services
not performed. Management agreed that the basis for payment of        Southern Pacific Central States Line –
administrative costs was misleading under the agreement, and has      Questioned Costs Not Yet Resolved
subsequently renegotiated a revised agreement that modifies the
                                                                                               Semiannual
payments rendered.
                                                                                              Period Ending        Response Date
Based on management’s response and discussions with the Law           Report #01-506 –          09/30/2001           09/04/2001
Department, it was determined that of the $1,910,812 identified,      Report #01-507 –          09/30/2001          09/04/2001
$563,522 pertaining to the audit period does not appear to be         Report #01-508 –          09/30/2001           10/12/2001
collectable and will be categorized as funds to be put to better      Report 01-509 –           09/30/2001           10/12/2001
use; $370,060 pertaining to the period subsequent to the audit
                                                                      Audit Questioned $4 million of Commissary Services
period will be revisited in the next CPR audit of the new
                                                                      Contract Costs – Corrective Action Not Yet Completed
contract; and $977,230 pertaining to the questioned D&H NRPC
                                                                      Report #218-2004 - Response 7/16/2004
Officer payments from 1991 to May 2004 are covered by a sepa-
rate agreement between Amtrak and D&H, that should be                 The following are either new items within this category or items
addressed by a separate D&H audit.                                    that have been included in previous Semiannual reports and
                                                                      additional information has been reported.

UNRESOLVED AUDIT ISSUES                                               CSXT – Non-On-Time Performance Items Audit
                                                                      $1,003,964 Erroneous Billings Identified
Appendices 1 and 2 show the status of management decisions on
                                                                      Report #01-105 – Response 8/20/2001
audit recommendations and dollar values of questioned costs,
unsupported cost, and funds to be put to better use.                  On April 27, 2005, OIG officials met with CSXT internal and
                                                                      external counsel to discuss outstanding non-OTP audit findings
Section 5(a)(10) of the Inspector General Act of 1978 as
                                                                      approximating $1 million. CSXT counsel stated that they did
amended requires “a summary of each audit report issued before
                                                                      not want to discuss the audit findings in detail, but proposed a
the commencement of the reporting period for which no manage-
                                                                      negotiated settlement of $400,000 to close the audit period
ment decision has been made by the end of the reporting period.
                                                                      through May 1999, with the stipulation that this amount would
. .” Such reports are shown in Appendix 1 and 2. Section
                                                                      include all OTP billings. The offer is unacceptable to Amtrak
5(a)(11) requires “a description and explanation of the reasons
                                                                      and no further contact has occurred with CSXT since April 27,
for any significant revised management decision made during
                                                                      2005 regarding this matter.
the reporting period.” There were none during this reporting
period. Section 5(a)(12) requires “information concerning any         CSX – NY High Speed Line Agreement
significant management decision with which the Inspector              Report #207-2003 – Response 5/18/2005
General is in disagreement.” Again, no such decisions were            Report #222-2005 – Response 3/8/2006
made during this reporting period.”
                                                                      We identified $217,537 in questioned costs related to CSXT’s
                                                                      use of certain tracks. Management has yet to reach a settlement
                                                                      with CSXT on these findings.




8   Office of Audits
Kiewit Pacific Company – Oakland Maintenance Facility
Report #502-2005 – Response 01/10/2006                              AUDIT STATISTICS
On December 21, 2005, OIG issued a report to Procurement            Status of Audit Projects
identifying questioned costs of $329,753 for a roof over the
Service and Inspection building in the new Oakland                  Audits in progress at 4/1/06                                    55
Maintenance Facility. Kiewit representatives requested that the     Audit projects postponed or cancelled                           13
proposed adjustments be delayed and settled simultaneously          Audit projects started                                          19
with their Seattle Holgate project. (See Audit Report: 503-2005
                                                                    Audit reports issued                                            17
under Procurement Audits issued in this reporting period)
                                                                    Audit projects in progress 9/30/06                              44
In September 2006, management advised that negotiations on
the Kiewit Oakland audit had been concluded. Management             Audit Findings
further indicated that it was awaiting Kiewit senior manage-
ment’s approval of the proposed settlement amount. Settlement       Questioned costs                                      $311,197
is anticipated in the next reporting period.                        Unsupported costs                                      $12,928
                                                                    Funds to be put to better use                      $15,854,469
Amtrak’s Overtime Expenses – Internal Controls Issues
Not Yet Resolved                                                    Total                                              $16,178,594
Report #205-2003 – Response 4/20/2005
We received a response from management addressing our find-
ings. Management will ensure proper training and oversight of      Mass Transit – Termination for Default for Superliner I
timekeepers and ensure the completion of payroll operation field   Overhaul
audits. Recently, management informed us that they expected to     Questioned Costs $63,184
update FI-4 during FY 2007 based on our audit recommenda-          Report #219-2005 – Response 1/25/2006
tions. A draft of FI-4 was recently reviewed by us and returned    At the request of Amtrak Procurement department, the OIG
to Amtrak’s Controller Office for further discussion. We will      performed a limited review related to the termination for default
continue to monitor.                                               of a contract. The project was terminated due to the contractor’s
Reimbursable Work Trains – Actions Still Being                     failure to timely and satisfactorily perform its obligations under
Considered                                                         the contract. Amtrak is negotiating a final settlement with the
Report #212-2003 – Response 10/28/2003                             contractor.

We recommended that Amtrak establish a more efficient system       Etrax Trip Manager Review – Agreed to Actions in
to fuel Mid-Atlantic work trains. We recently met with manage-     Progress
ment to discuss the issue and management agreed to further         Report #215-2005 – Response 9/9/2005
review our recommendation and respond to us.                       In OIG’s previous review of the Etrax Trip Manager System,
eTrax Payment Requests – Fiscal Year 2003 Procedures               Amtrak management agreed to write a procedure to address the
Not Followed and Internal Control Weaknesses Noted                 approval process for inconvenienced passenger and union
Report #202-2004 – Response 1/14/2005                              employee airfares. Management also agreed to resolve opera-
                                                                   tional issues and have airfares paid through the Pcard program.
The OIG review of eTrax payment request identified several         These actions are still in process.
weaknesses in internal controls.
                                                                   Parsons, Brinckerhoff, Quade & Douglas – Negotiations of
We made several recommendations which management has               Proposed Labor Costs in Progress
addressed. We are performing follow-up work to determine if        Report #211-2005 – Response 1/30/2006
the controls have been strengthened and improvements have
been made.                                                         We reviewed the contractor’s proposed labor costs and cost
                                                                   questioned $29,677 in certain labor costs. Management is
                                                                   currently negotiating a settlement with the contractor.



                                                                                                                 Office of Audits        9
Office of Investigations
                                                                                  The fraud OIG HOTLINE program has continued to provide
 CASE STATUS OF INVESTIGATIONS                                                    employees or third parties an opportunity to report allegations of
 4/1/06 – 9/30/06                                                                 fraud, waste, abuse, and other wrongdoing. Employees can
                                                                                  access the HOTLINE twenty-four hours a day by calling Amtrak
 Total Open Cases as of 4/1/06                                              319
                                                                                  Telephone System number 728-3065 in Philadelphia and the toll
 Closed Cases                                                                81   free number (800) 468-5469 if outside Philadelphia. During
 Opened Cases                                                                79   working hours from 9:00 a.m. to 4:30 p.m., OIG staff answers
 Total Ongoing Cases as of 9/30/06                                          317   the calls on the HOTLINE system. During other hours or during
                                                                                  those occasions when staff are away from the office, callers can
                                                                                  leave a message on the HOTLINE answering machine. In addi-
                                                                                  tion, people can write in confidentially to P.O. Box 76654,
CASE HANDLING                                                                     Washington, DC 20013. The OIG received two telephonic
                                                                                  HOTLINE complaints during this reporting period. The
The OIG receives allegations from various sources, including                      HOTLINE complaints received during this reporting period
employees, confidential informants, Congressional sources,                        were from a private citizen and an Amtrak employee.
federal agencies and third parties. Presently, we are handling
317 investigations; in the last six months, we opened 79 cases
and closed 81 cases.                                                                  HOTLINE STATISTICS
As shown below, under “Sources of Allegations”, employees                             4/1/06 – 9/30/06                                        Total
and anonymous source referrals accounted for about 67 percent
of the allegations during this reporting period, with employees                       Hotline Complaints Received                                 2
being the source of 41 of the 79 allegations of 51 percent. All
allegations are reviewed, screened and resources are allocated                        Sources of Hotline Complaints
based upon, among other things, the seriousness of the allega-
                                                                                      Amtrak Employee                                             1
tions and potential harm to Amtrak or the public.
                                                                                      Private Citizen                                             1

                                                                                      Classification of Complaints
 SOURCES OF ALLEGATIONS                                                               Theft/Embezzlement                                          2
 4/1/06 – 9/30/06
                                                                                      Complaints Referred To:
                                                      Private Citizen 6
                                                                                      OI Field Offices                                            0
                                                      Referred by Audit 2
                                                                                      Office of Diversity                                         0
                                                      Referred by Fed/Local Law
                                                      Enforcement 1

                                                      Referred by Other OIG 3


                                                      US Congress 1               SIGNIFICANT INVESTIGATIONS
                                                      Hotline 2
                                                                                  Fraud takes on many forms and can be committed through many
                                                      Other 3                     methods, including mail, wire, phone and the Internet.
                                                                                  Organizations that fail to implement measures to prevent and
                                                                                  detect internal fraud assume significant risk. As a result, the
                                               Amtrak Employee                    OIG spends considerable time and effort towards identifying and
         Anonymous                                   41
         Source 12
                                                                                  addressing the many types or forms of fraud. Illustrative of such
                                                                                  investigations are those mentioned below.
                                                                                  ■
Confidential Informant 6
                                Former                                                 A former Amtrak Assistant conductor based in Shelby,
                           Amtrak Employee 2
                                                                                       Montana, pleaded guilty in the United States District Court
                                                                                       for the District of Montana, Great Falls Division, to violation
                                                                                       of 18 U.S.C. 666(a) (1) (A), Theft from Amtrak—An

10     Office of Investigations
    Organization Receiving Federal Funds.        The former            JOINT INVESTIGATIONS
                                                                       ■
    Conductor failed to remit over $21,000 in Amtrak funds he
                                                                           During this reporting period, a joint investigation between the
    obtained from on board ticket sales.
                                                                           OIG, United States Postal Service, United States Secret
■   The OIG’s investigation found that a Pacific Surfliner                 Service and the Federal Bureau of Investigations regarding
    conductor withheld remittances for nearly a year. The inves-           identify theft, fraudulent cashing of checks and the use of ficti-
    tigation identified $8,687.35 owed to Amtrak. The OIG                  tious Amtrak identification cards was conducted. Several
    presented the case to the San Luis Obispo District Attorney’s          individuals were involved in fraudulent check cashing esti-
    Office. The conductor was arraigned and charged with Grand             mated of over $500,000. This joint investigation led to the
    Theft. The conductor subsequently pled guilty to the charge            successful prosecution of three individuals through the United
    and was ordered to pay restitution to Amtrak in the amount of          States Attorney’s Office.
    $8,687.35.
■   The OIG determined through an investigation that an Amtrak         FRAUDULENT MISUSE OF AMTRAK ASSETS
    Station Manager utilized Emergency Exchange Vouchers               ■   As the result of an allegation, the OIG conducted an investi-
    (EEV) to reimburse himself. On several occasions the manager           gation into the Reprographics Department and the use of
    reimbursed himself with the EEV and again submitted expense            Amtrak supplies and machinery to perform outside copy jobs
    reports for expenditures already reimbursed or having been             for either the Reprographics employees or others during
    credited because of cancellations. The manager was terminated          company time. The subsequent investigation substantiated
    and the case was presented to the Assistant U. S. Attorney for         the allegations as well as the finding that one employee regu-
    consideration.                                                         larly used their Amtrak-issued cell phone for personal
                                                                           business. The employees had utilized Amtrak equipment and
■   A former Amtrak Conductor based out of Charlotte, North                supplies for personal and third party projects. The OIG
    Carolina was terminated from Amtrak for dishonesty stem-               recommended that management take appropriate disciplinary
    ming from misappropriation of cash fare tickets sold aboard            action as well as implement better internal controls and moni-
    Amtrak trains. Subsequent to progressive appeals made by               toring practices.
    the conductor, the Public Law Board (Board) upheld the
    conductor’s termination, citing that the conductor failed in his
    responsibilities to utilize proper revenue handling. The           EFFICIENCY AND EFFECTIVENESS
    conductor also claimed that the OIG went beyond the estab-         In addition to detecting and deterring fraud, waste, abuse and
    lished time limits of scheduling a company investigation           wrong doing in Amtrak’s programs and operations, OIG investi-
    (twenty days from management’s first knowledge of the inci-        gations also provide information and recommendations to
    dent). The Board determined that the OIG is “independent of        company employees and officials towards improving efficiency,
    Amtrak” and the OIG notification to the Carrier’s                  effectiveness and adaptability. During this reporting period, OIG
    Management was timely (six days). Consequently, the Board          investigations have led to recommendations towards quality
    found no procedural issues.                                        improvement to which management responded positively and
■   The OIG received an allegation stating that a union employee       implemented, for the most part, in their entirety as detailed below:
                                                                       ■
    was misusing their personal rail pass privileges and time off          The OIG received an allegation that the integrity of Amtrak’s
    attributed to the Family Medical Leave Act (FMLA). The                 monthly Random Drug Testing Program and the roster of
    subsequent investigation proved that the employee was falsi-           employees eligible for testing may have been compromised in
    fying time under FMLA, allowing non-authorized family                  the New York Division. While we did not substantiate the
    members to use the employee rail travel privilege pass, and            allegations, the OIG determined that serious deficiencies
    found that the employee was issuing illegal rail refunds to            existed in the actual testing protocol. The OIG recom-
    himself. The employee was formally charged with these alle-            mended, via referral, that management take corrective action
    gations, but signed a Voluntary Waiver of Formal                       to correct the deficiencies, and improve security issues to
    Investigation to avoid prosecution. As a result, the employee          preserve the integrity of the testing protocol. Management
    has been permanently disqualified from holding any positions           responded favorably to the majority of the recommendations,
    within Amtrak dealing with finance, was issued a 30-day                and implemented key recommendations.
    suspension and was required to pay complete restitution to
    Amtrak prior to returning to service.


                                                                                                               Office of Investigations   11
    CLASSIFICATION OF CASES                                                                                   PROSECUTIVE REFERRALS
    OPENED DURING THIS PERIOD                                                                                 4/1/06 – 9/30/06
    4/1/06 – 9/30/06                                                                                          Referrals                U.S. Attorney       Local/State            Total
    Type                                                                                 Number               Criminal Cases
    Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                                                                                                              Indictments                     1                  0                  1
    Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                                                                                                              Convictions/Pleas               0                  0                  0
    Bribery . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                                                                                                              Pending*                        5                  0                  5
    False Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                                                                                                              Declinations                    4                  0                  4
    False Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                                                                                                              Resolved                        3                  0                  3
    False T&A Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                                                                                                              TOTAL                                                                13
    Other – Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
    Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5       Civil Cases
    Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11              Suits Filed                     0                  0                  0
    Mismanagement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4               Settled                         0                  0                  0
    Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2            Pending                         1                  0                  1
    Administrative Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4                  TOTAL                                                                 1
    Other Administrative . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6                Total Civil and Criminal                                             14
    TOTAL                                                                                          79         *Some of these will be reflected under pending civil cases because these
                                                                                                              matters are being handled by the United States Attorney’s office in parallel
                                                                                                              proceedings. In cases where there have been convictions or pleas, we may be
                                                                                                              awaiting sentencing, restitution, or other resolutions.
■     The OIG conducted a proactive review of all New England
      Division (NED) Engineering Department vehicles with alter-
      native garaging privileges. The analysis resulted in
      identifying commuting gasoline costs for all NED                                                    CONFLICT OF INTEREST
      Engineering Department vehicles to be about $336,223 per                                            ■    The OIG investigated an allegation that certain New England
      year. As a result of the analysis, a recommendation was made                                             Division Engineering Division employees may have violated
      that all take home vehicle justifications be reviewed to deter-                                          Amtrak’s Conflict of Interest Policy by engaging in personal
      mine if they are necessary and cost effective.                                                           business transactions with vendors doing business with
                                                                                                               Amtrak.
■     The OIG conducted an investigation which substantiated alle-
      gations that an Amtrak operational department had                                                        Our results identified that at least one (1) employee did, in
      systematically spent exorbitant funds (exceeding thousands of                                            fact, contract for personal business services with a firm simul-
      dollars) on promotional materials, functions, meetings,                                                  taneously engaged in business with Amtrak; and that the
      training sessions, and other events; and that senior managers                                            employee(s) immediate supervisor had knowledge and did
      had circumvented Amtrak’s financial system of checks and                                                 not report the conduct to higher authorities.
      balances by disguising the nature and extent of the spending,
                                                                                                               We recommended that management prohibit the employee
      including falsifying supporting documents and structuring
                                                                                                               from further work with the vendor, and recommended disci-
      payment requests. As a result of the OIG’s findings one high-
                                                                                                               plinary action as appropriate, or necessary. Management
      level manager was terminated and another demoted, and the
                                                                                                               implemented the recommendations.
      system by which this department’s spending is overseen has
      been tightened significantly.




12        Office of Investigations
                                                                      REVENUE PROTECTION EFFORTS
                                                                      The Revenue Protection Unit (RPU) provides critical guidance
                                                                      and support in the strengthening of management accountabilities
                                                                      and responsibilities as well as internal controls.

                                                                      RPU INITIATED FOOD & BEVERAGE REVIEWS
                                                                      Amtrak provides food and beverage service to millions of passen-
                                                                      gers each year through sales conducted on board trains in Café
                                                                      Cars and Dining Cars, provided on select trains. These sales
                                                                      generate millions of dollars in revenue each year as well as
                                                                      provide an opportunity for revenue abuse by dishonest employees.
                                                                      During this reporting period, through observations and analysis
                                                                      of the applicable programs, systems and documents, RPU
Chicago, IL
                                                                      prepared and distributed seventy-four (74) administrative
                                                                      referral letters on two union positions, Lead Service Attendant
ATTENDING TO DUTIES                                                   (LSA) and Debriefing Clerk, that have some responsibility in
■   The OIG performed a facility check at a New York mechan-          accounting for food and beverage usage.
    ical facility and discovered some employees were not
    attending to their duties by either sleeping on the job or they   At the close of the reporting period, sixty-one (61) responses
    were not present for duty during their scheduled hours of         have been received with discipline ranging from verbal or
    service. As a result two Amtrak managers and three union          written counseling’s to formal reprimand or suspensions and
    employees were disciplined and a new security system was          final warnings. In addition, several procedural changes have
    installed at the entrance to the facility building.               been addressed and adopted to reinforce accountability and
                                                                      responsibility for LSAs.
TIME AND ATTENDANCE REVIEWS
■   The OIG conducted an investigation into a North Carolina
    Baggage Handler, who was alleged to be punching in at the
    time clock and either leaving the station without permission or
    refusing to work. It was also alleged that the employee asked
    other employees to punch in their time card when they were
    going to be late. As a result of the investigation, the Baggage
    Handler was charged with violations under Amtrak’s
    Standards of Excellence and received a letter of counseling.




                                                                                                          Office of Investigations   13
Inspections and Evaluations
SIGNIFICANT INSPECTIONS &                                                   to 2 days, and the number of cars requiring additional work
                                                                            after completion of the preventive maintenance process was
EVALUATIONS                                                                 reduced by 25%. Similar results have been achieved for elec-
                                                                            tric locomotives. During the next reporting period, we plan
AMTRAK MECHANICAL OPERATIONS                                                on continuing to stay engaged at Ivy City while we roll this
In September 2005, we issued report E-05-04, which resulted                 effort out to additional maintenance locations throughout the
from a year-long system-wide review of Amtrak’s Mechanical                  country.
Maintenance Operations. In this report, we recommended that             ■   Amtrak Fleet Planning Process – Improvements can
Amtrak adopt a more modern maintenance philosophy based on                  lead to better equipment utilization and productivity
Reliability-Centered Maintenance (RCM). An RCM-based                        Report E-06-02 – issued 4/6/2006
program requires that all maintenance activities be supported by            One of the recommendations contained in OIG Report E-05-04
sound technical and economic justifications.                                (Amtrak Mechanical Maintenance Operations) was that
Our report recommended specific actions that Amtrak should take             Amtrak “develop, and keep current, a comprehensive fleet plan
to transition to RCM and to make the operations more efficient.             (that includes both locomotives and cars) to be used to forecast
For the past year we have been working with the Mechanical                  and prioritize mechanical capital expenditures.” The Chairman
Department to help them implement our recommendations.                      of Amtrak’s Board of Directors requested the OIG facilitate the
                                                                            implementation of this recommendation. To assist with this
■    Implementation of Reliability-Centered Maintenance                     effort, the OIG engaged the Thomas Group to conduct an
     To assist the Mechanical Department in evaluating the                  assessment of Amtrak’s current Fleet Planning Process.
     possible use of Reliability-Centered Maintenance, we engaged
     a consulting firm, T-solutions, who had facilitated the imple-         The assessment found that, in the past, Amtrak used a tactical
     mentation of RCM at both the U.S. Navy and the U.S. Coast              versus a strategic process to develop its Fleet Plan; that crit-
     Guard. We recommended that the initial efforts to determine            ical fleet related functions are managed separately rather than
     the application of RCM be focused on the Acela high-speed              as cross-functionally linked processes; and that effective
     fleet. Through a series of Maintenance Effectiveness                   metrics are not used to quantify either the productivity of the
     Reviews, every preventive maintenance task has been                    fleet or the implementation of the Fleet Plan. The assessment
     reviewed and either validated, modified or eliminated. Based           also found that these shortcomings have helped to produce
     on the results of these reviews, plans are now being developed         lower average load factors and a lower percentage of fleet
     by management to reschedule when and where preventive                  availability than what is reasonably expected from a rail oper-
     maintenance will be done. We anticipate significant improve-           ator that closely manages its assets. It was estimated that
     ments in reliability and availability of the Acela Fleet in FY07       Amtrak has the opportunity to improve its overall financial
     based on this initiative. We also expect maintenance costs per         performance by $28 million to $36 million annually by
     Acela train mile to noticeably decrease during FY07. Once              increasing the productivity and/or utilization of its rolling
     RCM is fully implemented for the Acela fleet, efforts will             stock fleet.
     move to Amtrak’s conventional fleets of equipment.                     Using this assessment, the OIG developed specific recom-
■    Mechanical Maintenance Process Improvement                             mendations on how Amtrak should produce, implement and
     In addition to helping Amtrak evaluate an RCM approach, we             monitor its Fleet Plan so that it supports the corporate long-
     have been facilitating an effort to improve maintenance effi-          term strategic goals and optimizes the productivity of
     ciency by improving the cycle time of key maintenance                  Amtrak’s fleet of locomotives and cars.
     processes. To assist with this effort, the OIG engaged the
     services of Thomas Group Inc. (TGI), with the initial effort       LONG DISTANCE TRAIN OTP
     focused on Amtrak’s Ivy City Maintenance Facility in               Long Distance Train OTP – Financial impact of poor OTP
     Washington, DC. Through the establishment of regularly             quantified
     scheduled meetings of cross-functional teams, numerous             Report E-06-05 – Issued 09/29/2006
     obstacles to achieving higher performance have been elimi-
     nated. This has resulted in significant improvements in            ■   The on-time performance (OTP) of Amtrak’s Long Distance
     process cycle times. For example, for Amfleet cars, the                Trains have been steadily declining for the past five years and
     preventative maintenance cycle time has been reduced from 4            the OTP of some of these trains has declined to the point where
     days to 3 days, the unscheduled repair cycle time from 3 days          over 80% of the trains arrive late at their final destination. The

14     Inspections and Evaluations
    purpose of this report was to examine the financial impact of            management information system to assist in planning,
    the poor OTP of Amtrak’s Long Distance Trains and to                     programming and monitoring maintenance activities; and
    develop a high-level estimate of the potential financial benefit         implementing a process to periodically assess the effectiveness
    to Amtrak if the trains ran more on-time. The evaluation quan-           and efficiency of the facility maintenance program.
    tified the changes in passenger revenue, time-related operating
    expenses and Host Railroad performance payments that would           HARASSMENT AND INTIMIDATION COMPLAINTS
    occur if the OTP of Long Distance trains improved from their
                                                                         Harassment and Intimidation Complaint – Allegation
    FY 2005 levels. This evaluation was intended to highlight
                                                                         substantiated
    where management could focus its actions to get the most
    financial benefits from improved Long Distance Train OTP.            Amtrak’s Statement of Policy Against Harassment and
                                                                         Intimidation states, in part, “Amtrak will, under no circum-
    Overall, this evaluation found that improving the OTP of all
                                                                         stances, tolerate harassing or intimidating conduct by any
    Amtrak Long Distance Trains has the potential of providing
                                                                         employee that is calculated to discourage or prevent any indi-
    around $40 million in annual financial benefits to the collec-
                                                                         vidual from receiving proper medical treatment or from
    tive performance of these trains. It was also found that
                                                                         reporting an accident, incident, injury or illness.” This
    approximately 50% of the potential financial benefits could
                                                                         Statement of Policy conforms to Federal Railroad
    be achieved by improving the OTP of only three (3) of the
                                                                         Administration Regulations 49 CFR Part 225.33
    fourteen (14) Long Distance Train routes. Finally, we discov-
    ered that the incremental financial benefits to Amtrak peak          ■   During this reporting period, one formal investigation that
    around 75% OTP. This occurs mainly because of the current                was opened in the previous reporting period was concluded.
    structure of Amtrak’s Host Railroad operating agreements                 The OIG substantiated an allegation that an Amtrak manager
    that provide incentive payments to Host Railroads when                   harassed and intimidated an employee with the intent to
    Amtrak’s trains achieve a high OTP.                                      discourage and dissuade the employee from properly
                                                                             reporting a workplace injury. The manager was also found to
    The evaluation produced three recommendations on where
                                                                             have violated Amtrak policies concerning accident investiga-
    Amtrak should focus its Long Distance Train OTP improve-
                                                                             tions and reporting injuries. A report was issued to the Senior
    ment efforts to maximize the bottom-line financial benefits.
                                                                             Vice President for Operations for action.

FACILITY MAINTENANCE                                                     ■   In addition, the OIG received three new employee complaints
                                                                             of Harassment and Intimidation. After conducting an inquiry
Facility Maintenance Program – Amtrak’s program lacks
                                                                             into each of the complaints, it was determined that none of the
many of the elements recognized as important to an effec-
                                                                             allegations could be substantiated as acts of harassment or
tive facility maintenance program
                                                                             intimidation.
Report E-06-04 – issued 8/24/2006
■   During this reporting period, the OIG completed its evalua-          NON-REMITTANCE OF REVENUE
    tion on the efficiency and effectiveness of Amtrak’s facility
                                                                         Conductor and LSA Non-Remittance – OIG continuing
    (building) maintenance program. Our findings revealed that,
                                                                         involvement
    overall, Amtrak does not give facility maintenance the same
    level of attention and effort that it devotes to maintenance of      Amtrak employees handle approximately $100 million annually
    its Right of Way (track/bridge/tunnel) and its rolling stock.        in on-board ticket and food and beverage sales. The OIG previ-
    Because of this lack of attention, some of Amtrak’s facilities       ously issued two evaluation reports where we noted substantial
    are currently in poor condition, with leaking roofs, inadequate      evidence of employee theft and made recommendations to
    lighting, uncontrollable temperatures, and inoperable equip-         improve the oversight and control of cash generated from on-
    ment. These conditions have an adverse effect on employee            board sales.
    productivity, safety and morale.
                                                                         The Inspections and Evaluations staff works closely with the
    Our recommendations in this report included developing               OIG Revenue Protection Unit, whose work is highlighted earlier
    comprehensive inventories of the systems and equipment in            in this report. Also, the I&E staff continues to interact with
    each facility; developing maintenance standards and measuring        Amtrak’s Customer Services department to advise on remittance
    the condition of facilities against these standards; instituting a   policy and procedures as well as process improvements for safe-
    comprehensive facility maintenance strategy; implementing a          guarding OBS revenues.

                                                                                                           Inspections and Evaluations   15
                                     Since October 2002, more than 200 conductors and 160 On-
                                     Board Service (OBS) employees have either resigned or been
                                     terminated from the company for misappropriation of revenues,
                                     in part as a result of OIG’s efforts in this area. In addition,
                                     during this same period of time, the LSA percent of cash remit-
                                     tance (cash remittance divided by Food and Beverage gross
                                     revenue) has increased from 56% to 63%, at least part of which
                                     is due to management’s increased focus on OBS accounting
                                     procedures.




California Zephyr | UT




16     Inspections and Evaluations
                  Counter-Terrorism and Intelligence
The OIG Office of Counter Terrorism and Intelligence (CT&I) is              EMERGENCY ACTION PLAN REVIEW
responsible for oversight of Amtrak’s rail security, emergency
                                                                            The CT&I unit conducted a detailed evaluation of the Emergency
preparedness, and related counter-terrorism and intelligence efforts.
                                                                            Action Plan for a major station. The review revealed weaknesses
Working with other entities within the Amtrak security program,
                                                                            in the plan around evacuation procedures and emergency actions
this unit works to increase awareness about the possibilities of
                                                                            relating to police and security response. Our report made recom-
terrorist attack against passenger rail services, and the critical impor-
                                                                            mendations for Emergency Action Plan revisions to rectify the
tance of security preparedness and risk mitigation. During this
                                                                            identified shortfalls.
reporting period, we have undertaken various security oversight and
outreach activities some of which are highlighted below.
                                                                            TERRORISM CONTINUITY PROGRAM ASSISTANCE
Given the highly confidential nature of this unit, its activities and       During the reporting period, the OIG participated in strategy delib-
progress is generally not publicized. The OIG is willing to discuss         erations regarding contingency plans for baggage screening, and
projects and highlights with Congressional members and staff.               the deployment of chemical and biological sensor technologies in
                                                                            Amtrak facilities. The Terrorism Continuity Program – an effort
SIGNIFICANT COUNTER-TERRORISM                                               undertaken by the Vice President for Security - was scheduled to
                                                                            report its recommendations by the end of calendar year 2006.
AND INTELLIGENCE EFFORTS
                                                                            COUNTER-SURVEILLANCE TRAINING AND
RAIL CORRIDOR INITIATIVE
                                                                            OPERATIONS
The OIG has been facilitating a project to enhance the security in
                                                                            OIG officers and personnel from the Amtrak Police Department
one of its rail tunnels under a project named the Rail Corridor
                                                                            participated in a two-week counter-surveillance training session.
Initiative (RCI). The OIG continues to provide support and
                                                                            One of Amtrak’s partner railroads also participated in this training.
facilitate communications between Amtrak offices and the
Department of Homeland Security in the execution of the RCI.                In the period leading up to the fifth anniversary of the 9/11 attacks,
Both Amtrak and DHS and its contractors sought our assistance               the OIG undertook counter-surveillance activities at a major
in responding to inquiries, setting up meetings, and undertaking            metropolitan station. These efforts supported enhanced security
fast turn-around resolution of key issues. Ensuring that all of the         activities already planned by the Amtrak Police Department.
partners are fully aware of schedule and coordination issues is of
critical importance to the achievement of an end-product on time            OIG PARTICIPATION IN THE POLICE RIDE-A-LONG
and on-budget. The successful conclusion of the RCI will
provide an important security upgrade.                                      PROGRAM
                                                                            The OIG facilitated the first OIG Police Ride-A-Long Program
                                                                            wherein OIG agents worked three full shifts with local police
HOMELAND DEFENSE OPERATIONAL SYSTEMS (HOPS)
                                                                            departments, riding with police officers on patrol. The program
The OIG arranged for an assessment to be conducted by the                   was instituted as a segment of ongoing training and was designed
Lawrence Livermore National Laboratory (LLNL) HOPS                          to provide agents with tangible and current police tactics and
program at a large metropolitan train station. The now completed            procedures that would enhance their own safety and effective-
assessment is both rigorous and timely, and provides an important           ness while conducting their normal duties. Although the primary
decision support tool to managers charged with mitigating certain           role of the agents, while on patrol, was observation, many were
facility vulnerabilities. Based on the successful execution of this         able to take on a more active role and assist with citations and
initial study, it is planned that HOPS evaluations will be                  arrests. At the conclusion of this reporting period, approxi-
conducted at other major Amtrak facilities across the nation.               mately 75% of OIG Agents have completed their ride-a-long.

VIRTUAL MAPPING PROJECT                                                     REGIONAL SECURITY EFFORTS
During this reporting period, the OIG arranged for the virtual              The OIG is involved in regional security and terrorism planning.
digital mapping of a major infrastructure. This mapping product             Philadelphia OIG Agents and the Amtrak Police Department
provides first responders and security planners with a contin-              conducted a joint information session with the FBI’s Joint
gency planning tool, useful during both pre-incident drills and             Terrorism Task Force and area first responders, Philadelphia
during and post-incident emergency preparedness operations.                 Police Bomb Squad and various other emergency response units
                                                                            regarding emergency preparedness.
                                                                                                        Counter Terrorism and Intelligence     17
Other OIG Activities
COORDINATION WITH INDEPENDENT                                       WORKPAPER AUTOMATION
PUBLIC ACCOUNTANTS                                                  Automation of Audit Work Papers and Management
                                                                    Process
Section 805 of the Rail Passenger Service Act of 1970 requires
Amtrak to have its financial statements audited annually in         As discussed in our previous reports, the Amtrak OIG selected
accordance with the generally accepted auditing standards, and      TeamMate application to automate various audit processes such
to report the audit findings to Congress in Amtrak’s annual         as risk assessment, planning and scheduling, electronic work
report. Amtrak has been audited annually since 1971.                paper documentation, time and expense tracking, and report
                                                                    writing. In order to protect the confidentiality and chain of
As part of the annual audit process, the OIG informs the external   custody of OIG information, a secure subnet with internal fire-
auditors on the scope of the ongoing audit activities being
                                                                    walls and virtual private network (VPN) was built to host the
conducted by the OIG, and continues to coordinate significant
                                                                    TeamMate application and related databases.
audit issues with Amtrak management and the external auditors,
as necessary.                                                       During this semi-annual period, we successfully completed the
                                                                    testing and implementation of the OIG Secure Subnet. We
                                                                    developed the TeamMate Protocol and Library which guides
LEASE AUDIT                                                         auditors on how to use the application and document their audit
Lease Audit Identified $129,680 in Overpayments.                    work. We conducted the end-to-end testing for all offices and
                                                                    started training our audit staff. By early FY2007, we plan to
The OIG engaged Lease Audit and Advisory Services, Inc. to          complete the training for all audit staff and start using TeamMate
review Trammell Crow Company’s books and records for the            for all new projects
Amtrak lease at 10 G Street, NE, Washington DC. The audit
identified overpayments stemming from inaccurate calculations
of rent cap by the landlord. The OIG has notified Amtrak
management to request a refund of $129,680 from the Trammell
Crow Company.




18   Other OIG Activities
NATIONAL RAILROAD PASSENGER CORPORATION

                              Office of the Inspector General




                                                                Appendices
Appendix 1
 INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH QUESTIONED COSTS
 4/1/06 – 9/30/06
                                                   Number   Questioned Costs   Unsupported Costs
 A. For which no management decision
    has been made by the commencement
    of the reporting period.                         5        $1,224,836            $277,348
 B. Reports issued during the
    reporting period.                                5          $311,197             $12,928

 Subtotals (A + B)                                  10        $1,536,033            $290,276

 LESS
 C. For which a management decision
    was made during the reporting period.            8
     (i) dollar value of recommendations
         that were agreed to by management.                     $786,925                  $0
     (ii) dollar value of recommendations
          that were not agreed to by management.                  $2,716                  $0

 D. For which no management decision
    has been made by the end of the
    reporting period.                                2          $746,392            $290,276




20   Appendix 1
                                                          Appendix 2
INSPECTOR GENERAL AUDIT REPORTS ISSUED WITH FUNDS TO BE PUT TO
BETTER USE
4/1/06 – 9/30/06
                                                 Number         Dollar Value
A. For which no management decision
   has been made by the commencement
   of the reporting period.                        1              $27,068
B. Reports issued during the
   reporting period.                               2           $15,854,469

Subtotals (A+B)                                    3           $15,881,537

LESS
C. For which a management decision
   was made during the reporting period.           3
   (i) dollar value of recommendations
       that were agreed to by management.                      $14,534,247
   (ii) dollar value of recommendations
        that were not agreed to by management.                  $1,347,290

D. For which no management decision
   has been made by the end of the
   reporting period.                               0                    $0




                                                                  Appendix 2   21
Appendix 3
 OFFICE OF THE INSPECTOR GENERAL DETAILED LISTING
 OF ALL ISSUED AUDIT REPORTS
 4/1/06 – 9/30/06
 Date               Report                                                               Questioned   Unsupported   Funds to be Put
 Issued             Number        Report Title                                                Costs         Costs     to Better Use
 08/01/2006         107-2005      Fire and Life Safety – Fire Suppression Installation          $0            $0                $0

 07/27/2006         108-2005      Federal Equitable Sharing Program                             $0            $0                $0

 09/08/2006         111-2005      Balance Sheet Account Reconciliations                         $0            $0                $0

 08/15/2006         201-2006      Cleveland Track                                           $ 2,716           $0                $0

 06/19/2006         202-2005      eTrax Procurement – Pcards                                    $0            $0                $0

 09/25/2006         202-2006      Bombardier First Class Car Repair                        $19,776       $12,928                $0
                                  PO#S-065-09639

 04/14/2006         203-2006      Hudson News Lease Audit                                       $0            $0                $0

 05/08/2006         206-2006      Washington, DC Station                                        $0            $0                $0

 04/17/2006         207-2006      Emergency Exchange Voucher Review - DC                        $0            $0                $0

 07/12/2006         211-2006      Harrisburg Station                                            $0            $0                $0

 05/22/2006         213-2006       Fire and Life Safety                                         $0            $0                $0
                    Final Audit Working Capital Advance Fund

 09/08/2006         214-2006      KWO Associates Lease Audit                                $1,389            $0                $0

 09/29/2006         217-2005      Attleboro Agreement                                           $0            $0      $13,943,657

 05/16/2006         405-2005      CPR Railway OTP Audit – 1/02 - 5/04                     $ 33,056            $0                $0

 08/28/2006         405-2006      Glenview, IL Ticket Office                                    $0            $0                $0

 06/02/2006         407-2005      Canadian Pacific Railway Non-OTP                              $0            $0        $1,910,812

 07/11/2006         503-2005      Kiewit Pacific Company – Seattle Holgate                $254,260            $0                $0

 Total (17)                                                                               $311,197       $12,928      $ 15,854,469




22   Appendix 3
                                            Appendix 4
OFFICE OF THE INSPECTOR GENERAL
SUMMARY OF REPORTS TO PRESIDENT OF AMTRAK
CONCERNING INFORMATION OR ASSISTANCE
UNREASONABLY REFUSED OR NOT PROVIDED
4/1/06 – 9/30/06

NONE




                                                  Appendix 4   23
Appendix 5
 OFFICE OF THE INSPECTOR GENERAL
 REVIEW OF LEGISLATION AND REGULATIONS
 4/1/06 – 9/30/06
 Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall …review existing and proposed
 legislation and regulations relating to programs and operations of such establishment and to make recommendations in the semiannual reports
 … concerning the impact of such legislation or regulations on the economy and efficiency in the administration of such programs and opera-
 tions administered or financed by such establishment or the prevention and detection of fraud and abuse in such programs and operations.
 The Office of Inspector General has an agreement with Amtrak’s Government and Public Affairs Department that allows the OIG to review
 and comment on the company’s annual legislative program and other legislative and regulatory concerns of the company. Existing legislation
 and regulations are reviewed as necessary, as a part of every audit and investigation.
 The OIG has also submitted legislative recommendations to oversight and appropriating committees seeking line item funding and several
 other legislative changes that will strengthen OIG independence and effectiveness.




24   Appendix 5
                                                                                                   Appendix 6
GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
The terms we use in reporting audit statistics are defined below:
Questioned Cost                     A cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an alleged
                                    violation of Amtrak’s corporate policy or procedure.
Unsupported Cost                    A cost that is not supported by adequate documentation at the time of the audit.
Funds To Be Put To Better Use       Funds identified in an audit that could be used more effectively by taking greater efficiency measures.
Management Decision                 Management’s evaluation of our audit finding and its final decision concerning agreement or non-
                                    agreement with our recommendation.

Certain abbreviations used in the text are defined below:
APD      Amtrak Police Department                                      LLNL        Lawrence Livermore National Laboratory
ATAC     Anti Terrorism Advisory Council                               MBTA        Massachusetts Bay Transportation Authority
CFR      Code of Federal Regulation                                    NEC         Northeast Corridor
CPR      Canadian Pacific Railway                                      NED         New England Division
CSXT     CSX Corporation                                               OBS         On Board Services
CT&I     Counter Terrorism & Intelligence                              OIG         Office of Inspector General
CUSCO    Chicago Union Station Corporation                             OTP         On time Performance
DHS      Department of Homeland Security                               Pcard       Procurement Card
DOJ      Department of Justice                                         RCI         Rail Corridor Initiative
EEV      Emergency Exchange Voucher                                    RCM         Reliability Centered Management
eTrax    Electronic Transaction Express Software System                RPU         Revenue Protection Unit
FAR      Federal Acquisition Register                                  SRI         Strategic Reform Initiatives
FBI      Federal Bureau of Investigation                               TGI         Thomas Group Inc
FMLA     Family Medical Leave Act                                      VPN         Virtual Private Network
GAAP     Generally Accepted Accounting Principles                      WUS         Washington Union Station
HOPS     Homeland Defense Operational Systems
LSA      Lead Service Attendant




                                                                                                                             Appendix 6       25
Reporting Requirements Index
 INDEX OF REPORTING REQUIREMENTS PURSUANT
 TO THE INSPECTOR GENERAL ACT AMENDMENTS OF 1988
 Topic                              Reporting Requirements                                                              Page
 Section 4(a)(2)                    Review of Legislation and Regulations                                                 24
 Section 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                          5-8, 10-11, 14-17
 Section 5(a)(2)                    Recommendations for Corrective Action to Significant Problems           5-8, 10-11, 14-17
 Section 5(a)(3)                    Previous Reports’ Recommendations for Which Corrective Action
                                    Has Not Been Completed                                                               8-9
 Section 5(a)(4)                    Matters Referred to Prosecutive Authorities                                           12
 Section 5(a)(5)                    Information or Assistance Refused or Not Provided                                     23
 Section 5(a)(6)                    Audit Reports Issued in This Reporting Period                                         22
 Section 5(a)(7)                    Summary of Significant Reports                                          5-8, 10-11, 14-17
 Section 5(a)(8)                    Audit Reports with Questioned Costs                                                   20
 Section 5(a)(9)                    Audit Reports with Recommendations That Funds Be Put to Better Use                    21
 Section 5(a)(10)                   Previous Audit Reports Issued with No Management Decision Made by
                                    End of This Reporting Period                                                           8
 Section 5(a)(11)                   Significant Revised Management Decisions                                               8
 Section 5(a)(12)                   Significant Management Decisions with Which the IG is in Disagreement                  8




26   Reporting Requirements Index
Stop Fraud, Waste, Mismanagement, and Abuse

Who pays? You pay. Act like it’s your money… it is!
Tell Us About It
Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak.
Amtrak’s Office of Inspector General has a toll free hotline number for you to call. You can also write to us.
We will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from reprisal by your employer.

Call the hotline:
Nationwide             (800) 468-5469
Philadelphia           (215) 349-3065
                       ATS 728-3065

Write to us:
Inspector General
P.O. Box 76654
Washington, DC 20013-6654




National Railroad Passenger Corporation
Office of Inspector General
(800) 468-5469
       National Railroad Passenger Corporation
                 Office of the Inspector General
10 G Street, NE, Suite 3W-300, NE, Washington, DC 20002-4285



         Amtrak is a registered service mark of the National Railroad Passenger Corporation.
